WAIVER

FILED
JUL 3 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES
No.

21-16
Unites States, et al.

Robert Paul Magtulis Cledera

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

HomePro Operating, LLC

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
fficg, 1 First Street, NE, Washington, D.C. 20543).
Attn: Cler
Signature:

July 27, 2021

Date:

(Type or print) Name Elizabeth Aten Lamberson
0 Mr.

O

Ms.

0 Mrs.

Firm

The Coles Firm PC

Address

4925 Greenville Avenue, Suite 200

City & State

Dallas

Phone

214-443-7860

0 Miss

Zip

75206

Email lizl@colesfirm.com

RECEIVED

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate b !low the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is remed, 2

Robert Cledera, Petitioner
cc:

2021

